OIG Investigative Reports, Mother and Daughter Charged with Submitting False Claims for Educational Financial AID for Inmates at Pulaski Correctional Unit
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT OF VIRGINIA
FOR IMMEDIATE RELEASE
September 18, 2006
United States Attorney
John L. Brownlee
BB&T Building
310 1st Street, S.W., Room 906
Roanoke, Virginia 24011
Contact:
Heidi Coy
Public Affairs Specialist
Tel: (540) 857-2250
Fax: 540) 857-2180
MOTHER AND DAUGHTER CHARGED WITH SUBMITTING FALSE CLAIMS FOR EDUCATIONAL FINANCIAL AID FOR INMATES AT PULASKI CORRECTIONAL UNIT
United States Attorney John L. Brownlee announced today that Karen Sue Justus, age 58, of Fort Wayne, Indiana, and Joy M. Justus, age 30, of New Haven, Indiana have been charged in a one count information charging them each with conspiring to submit false claims to the United States.
"Karen and Joy Justus filed dozens of false applications for money that
is intended for hardworking college students. The conspirators had no intention
for using it for the appropriate reasons, and instead used it for their own personal
gain," said United States Attorney John Brownlee.
According to the information, Karen and Joy Justus would prepare and submit false Wage and Tax Statements and file false applications for student financial assistance for not less than 14 inmates at the Pulaski Correctional Unit in Virginia, and in one case, for a man who had already passed away. The Justuses would claim that the inmates were attending either Ivy Tech State College, which is located in New Haven, Indiana, or Owens State Community College in Findlay, Ohio and Toledo, Ohio. The Pulaski Correctional Unit does not have any educational agreements with either Ivy Tech State College or Owens State Community College. The Justuses would ask for the maximum amount of financial aid, and would deposit the majority of it in a bank account in Indiana, sending a small portion back to the co-conspirators at the Pulaski Correctional Unit.
The conspiracy started in July 2003 and lasted until April 2005. Between September
23, 2003 and October 22, 2004, seven separate federal student loan refund checks
made payable to Jason P. Justus, who was incarcerated the Pulaski Correctional
Unit were mailed to Karen Justus' post office box in Fort Wayne, Indiana. Based
on the false applications that Karen and Joy Justus had submitted, Jason Justus
was awarded a Pell Grant in the amount of $3,900 and student loans in the amount
of $6,625 for the 2003-2004 school year.
In total, the fraudulent applications resulted in the payment of $110,227.00 from the Department of Education to people who were not enrolled in programs at these colleges.
During a telephone conversation on October 16, 2004, Karen Justus informed
Jason Justus, who was at the Pulaski Correctional Facility at the time, that he
"... was doing pretty good in school."
On November 21, 2004, Karen Justus called Jason Justus at PCU and stated,
"I think I forgot to take a test for you."
In February 2004, Karen and Joy Justus filed a 2003 tax return in the name
of Paul Justus. Paul Justus was Joy Justus' father and passed away on September
3, 1998. The return included a W-2 form that claimed that Paul Justus received
$13,688 in wages during the calendar year 2003 paid by Pro Resources, Inc. The
tax return claimed two dependants, Karen Justus and her adopted son.
The maximum charge for conspiracy to submit false claims to the United States is ten years in prison and a maximum fine of $250,000. A pre-trial hearing is set for October 10, 2006.
Jason Justus was indicted on charges of conspiracy to submit false claims and making false statements in April 2006. His trial has been set for October 19, 2006.
The case was investigated by the Internal Revenue Service and the Department of Education.
Assistant United States Attorney C. Patrick Hogeboom, III is prosecuting the case.
Printable view
Share this page
Last Modified: 10/13/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov